No. 19-439
INTHE

~upreme QI:ourt of tbe Wniteb ~tate~
CTIA- THE WIRELESS AsSOCIATION®,

Petitioner,

V.

THE CITY OF BERKELEY,
CALIFORNIA, AND CHRISTINE DANIEL, CITY MANAGER
OF BERKELEY, CALIFORNIA, IN HER OFFICIAL
CAPACITY,

Respondents.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 19th day of November, 2019, I caused three copies of the Reply Brief of
Petitioner to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Lawrence Lessig
HARVARD LAW SCHOOL
1563 Massachusetts Ave
Areeda 235
Cambridge, MA 02138
(617) 496-8853
lessig@law.harvard.edu

Counsel for Respondents

